HHS/OIG, Audit - "Review of Medicaid Claims Made By Lake Grove Schools in
New York," (A-02-06-01001)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Claims Made By Lake Grove Schools in New York," (A-02-06-01001)
September 13, 2006
Complete Text of Report is available in PDF format (257 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether Medicaid claims submitted by and paid to two Lake Grove Schools in New York (Lake Grove) complied with certain Federal and State requirements. Lake Grove improperly claimed Medicaid reimbursement for 75 students who were attending their schools in Connecticut and Massachusetts, neither of which was enrolled as a provider in New York’s Medicaid program. In addition, Lake Grove improperly claimed Medicaid reimbursement for 58 students after their discharge from school. As a result, Lake Grove improperly received $678,402 ($347,911 Federal share) in Medicaid reimbursement. We recommended that New York State: (1) recoup $678,402 from Lake Grove and refund $347,911 to the Federal Government, (2) instruct Lake Grove to cease claiming Medicaid reimbursement for students attending their Connecticut and Massachusetts schools and for students who were discharged, and (3) determine the amount of improper Medicaid reimbursement claimed by Lake Grove for students attending their schools in Connecticut and Massachusetts, and for claims beyond students’ discharge, for periods prior to and after our audit period, and return the Federal share of these overpayments to the Federal Government. The State generally concurred with recommendations.